        Increased Visibility, Monitoring, and Planning
       Needed for Commander’s Emergency Response
                  Program in Afghanistan




                          September 9, 2009




SIGAR Audit-09-5 Commander’s Emergency Response Program
    SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION



September 9, 2009

General David Petraeus, USA
Commander, U.S. Central Command

General Stanley A. McChrystal
Commander, U.S. Forces Afghanistan
  and International Security Assistance Force

This report presents the results of our review of controls and accountability for the
Commander’s Emergency Response Program in Afghanistan (CERP). CERP is an important tool
for Commanders, generally intended to fund small-scale projects that can be sustained by the
local population or government, and respond to urgent humanitarian relief and reconstruction
needs. In May 2009, USFOR-A assumed responsibility for CERP. This report includes three
recommendations for USFOR-A to improve the management of CERP and ensure sufficient
oversight of funds.

A summary of our report is on page ii. The audit was conducted by the Office of the Special
Inspector General for Afghanistan Reconstruction (SIGAR) under the authority of Public Law 110-
181 and the Inspector General Act of 1978, as amended. When preparing the final report, we
considered written comments from USFOR-A and incorporated information in their comments,
as appropriate. Copies of their comments are included in appendices III of this report.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General for Afghanistan Reconstruction




SIGAR Audit-09-5 Commander’s Emergency Response Program                                 Page i
                                                                   SIGAR Audit-09-5                       September 2009


                   SIGAR
                                              Special inspector General for Afghanistan Reconstruction
                                                                   INCREASED VISIBILITY, MONITORING, AND
                                                                   PLANNING NEEDED FOR
              .
                                                                   COMMANDER’S EMERGENCY RESPONSE
  Special Inspector General for Afghanistan Reconstruction         PROGRAM IN AFGHANISTAN
What SIGAR Reviewed
Since 2004, the Department of Defense (DOD) has funded over $1.6 billion for the Commander’s Emergency Response
Program in Afghanistan (CERP), generally intended to fund small-scale projects that can be sustained by the local
population or government and respond to urgent humanitarian relief and reconstruction needs. This report discusses the
extent to which internal controls for CERP ensure accountability for program funds. We conducted this performance audit
in Kabul and Bagram Air Field in Afghanistan and in Washington, D.C., from April to July 2009 in accordance with generally
accepted government auditing standards.


What SIGAR Found
Although DOD has established procedures to ensure control and accountability for CERP funds, we identified weaknesses in
monitoring and execution procedures. DOD and U.S. Forces Afghanistan (USFOR-A) have taken steps to ensure funds are
obligated for authorized uses during the CERP approval process; however, additional measures are needed to ensure
adequate controls over the execution of CERP projects. We found that management has limited visibility over CERP
projects, due, in part, to a lack of centrally retained physical project files and incomplete or absent electronic project
records. For example, program officials at USFOR-A were unable to identify, during the course of our audit, the number of
ongoing CERP projects funded prior to fiscal year 2009.

CERP was designed to fund primarily small-scale projects. Although the majority of CERP projects remain small in scale,
funds increasingly have been obligated for large-scale projects of $500,000 or more. While large-scale projects account for
a small proportion (3 percent) of the total number of projects, they consume a majority (67 percent) of CERP funds. For
example, through the third quarter fiscal year 2009, 6 percent of CERP projects were large-scale projects that constituted
$290 million or 78 percent of total obligations. Large-scale projects pose increased risks for CERP, because typically they
require several years for completion or consume significant amounts of time and resources by program managers who have
been trained to primarily implement smaller-scale projects. Additionally, frequent rotations have challenged the ability of
program officials to manage large, long-term projects.

What SIGAR Recommends
To improve the management of CERP and ensure sufficient oversight of funds, SIGAR recommends that the Commander of
USFOR-A develop and implement a process to systematically collect and track information on CERP projects; implement a
solution for centralizing CERP records; and develop and implement a plan to address the management of large-scale
projects of $500,000 or higher. USFOR-A concurred or partially concurred with the information presented in the report and
described actions they are taking which are generally consistent with our recommendations. Specifically, USFOR-A did not
agree that large-scale projects pose particular risk, indicating that almost all large-scale CERP projects are roads. However,
SIGAR’s review of project data provided by USFOR-A indicates that CERP projects from fiscal year 2005 through the third
quarter of fiscal year 2009 included 109 non-transportation projects valued over $500,000 (35 percent of total large scale
projects). USFOR-A did not state whether they did or did not concur with SIGAR’s recommendations. In its general
              `
comments on the report, USFOR-A discussed several actions that they plan to take to address identified deficiencies,
including the addition of project managers for CERP administration, strengthening electronic record requirements, adding
civilian information managers to facilitate electronic record keeping, and including limitations on the numbers of projects
by region and reducing monetary approval authorities. These iactions, if fully implemented, will lesson program risk.
TABLE OF CONTENTS


Background                                                                 1

Weaknesses in Monitoring and Execution Put CERP Funds at Risk              2

Conclusions                                                                5

Recommendations                                                            6

Comments                                                                   6

Appendix I: Scope and Methodology                                          8

Appendix II: USFOR-A Commander’s Emergency Response Program                9
      (CERP) Project Data, 2005-2009

Appendix III: Comments from U.S. Forces Afghanistan                        15




Abbreviations

CERP            Commander’s Emergency Response Program
CJTF-101        Combined Joint Task Force-101
DOD             Department of Defense
SIGAR           Special Inspector General for Afghanistan Reconstruction
USFOR-A         U.S. Forces Afghanistan




SIGAR Audit-09-5 Commander’s Emergency Response Program                    Page iii
                   INCREASED VISIBILITY, MONITORING, AND PLANNING NEEDED FOR
                  COMMANDER’S EMERGENCY RESPONSE PROGRAM IN AFGHANISTAN

This report discusses the extent to which internal controls for the Commander’s Emergency Response
Program in Afghanistan (CERP) ensure accountability for program funds.

We reviewed CERP guidance issued by the Department of Defense, U.S. Forces Afghanistan (USFOR-A),
and the Combined Joint Task Force-101 (CJTF-101) as well as program documents including, checklists
and guidance prepared by CERP program managers. We also reviewed CERP data collected in the
project tracking system and conducted a file review of 72 CERP project files. In addition, we interviewed
officials responsible for the management, approval, and monitoring of the program at USFOR-A, CJTF-
101, as well as Task Force Phoenix and Task Force Warrior. 1 We also attended CERP board review
meetings, chaired by USFOR-A. We conducted this performance audit in Kabul and Bagram Air Field in
Afghanistan and in Washington, D.C. from April to July 2009 in accordance with generally accepted
government auditing standards. Our scope and methodology is described in Appendix I.

BACKGROUND

In fiscal year 2004, the Department of Defense (DOD) created CERP to enable local commanders in Iraq
and Afghanistan to respond to urgent humanitarian relief and reconstruction requirements. Since then,
DOD has funded over $1.6 billion for CERP in Afghanistan. According to DOD’s Financial Management
Regulations for CERP, the program is generally intended to fund small-scale projects that can be
sustained by the local population or government, and respond to urgent humanitarian relief and
reconstruction needs. According to the regulations, a small-scale project is generally defined as any
project less than $500,000. The regulations identify 20 categories of authorized uses of CERP funds for
projects ranging from the development of Afghanistan’s infrastructure to temporary contract guards for
critical infrastructure. 2 The regulations also identify 11 unauthorized uses of CERP funds. 3
USFOR-A and its subcommand, Combined Joint Task Force-82, as well as task forces and provincial
reconstruction teams are responsible for the management and execution of CERP. 4 CERP managers
maintain the primary day-to-day responsibility for the program. The task force commanders are
1
In June 2009, CJTF-101 turned over command to CJTF-82.
2
 Authorized uses of CERP funds include: water and sanitation; food production and distribution; agriculture and
irrigation; electricity; healthcare; education; telecommunications; economic, financial and management
improvements, transportation; rule of law and governance; civic cleanup activities; civic support vehicles; repair of
civic and cultural facilities; battle damage and/or repair; condolence payments; hero payments; former detainee
payments; protective measures; other urgent humanitarian or reconstruction projects; temporary contract guards
for critical infrastructure.
3
 Unauthorized uses of CERP funds include: benefit to U.S., coalition, or supporting military personnel; providing
goods, services, or funds to national armies or security forces; weapon buy-back programs or purchase of firearms
or ammunition; entertainment; reward programs; removal of unexploded ordnance; duplication of services
available through municipal governments; salaries for Afghan military or civilian government personnel, training,
equipping, or operating costs of Afghan security forces; conducting operations; and support to individuals or
private businesses.
4
 In May 2009, USFOR-A assumed responsibility for management of CERP. Prior to that date, CJTF in regional
command East was responsible for CERP in Afghanistan.


SIGAR Audit-09-5 Commander’s Emergency Response Program                                                       Page 1
charged with appointing CERP personnel, including Project Purchasing Officers (PPO) and Paying Agents
(PA), and ensuring they are properly trained and follow program guidance. The PPO’s responsibilities
include project contracting and oversight, and maintaining project files and required documents. The
PA is responsible for receiving and disbursing CERP funds, including vendor payments. Staff officers at
the task force level also play a role in the CERP process. For example, attorneys are responsible for
reviewing project nominations to ensure that the projects are legally sufficient and in compliance with
CERP guidelines. Engineers are responsible for providing engineering expertise when required, including
adequacy of design and sustainment plan.

According to CERP guidance and standard operating procedures, project files for all CERP projects are to
be maintained at the task force level. Since 2007, CERP managers have been required to maintain
electronic records of project files in the Combined Information Data Network Exchange, a DOD database
that, among other things, tracks information on CERP projects such as project status; project start and
completion date; and dollars committed, obligated, and disbursed.

WEAKNESSES IN MONITORING AND EXECUTION PUT CERP FUNDS AT RISK

Although DOD has taken a number of measures to ensure accountability for the use of CERP funds, we
identified weaknesses in monitoring and execution procedures. DOD Financial Management Regulation
for CERP and the CERP Standard Operating Procedures established procedures to ensure proper controls
and accountability for CERP funds. 5 Those controls included measures to assess risk and limit access to
vulnerable assets, which were generally followed by CERP program officials at USFOR-A and CJTF-101.
For example, to strengthen oversight the threshold requirement for submission of project proposals to
the CERP review board was reduced in 2008 from $500,000 to $200,000. In another example, CERP
managers have increasingly limited access to vulnerable assets and facilitated the documentation of
transactions, by encouraging the use of electronic funds transfers to pay contractors.

Although DOD and USFOR-A have taken steps to ensure funds are obligated for authorized uses during
the CERP approval process, additional measures are needed to ensure adequate controls during the
execution of CERP projects. Program officials we met with from USFOR-A and CJTF-101 stated that their
focus is primarily on the obligation of funds for projects in the current fiscal year. We found that
USFOR-A lacks sufficient oversight mechanisms for monitoring the execution of CERP projects and has
focused on meeting the requirements for the obligation of funds. Although DOD regulations and
standard operating procedures include controls for monitoring CERP project implementation, we found
those procedures were not always being followed by CERP program officials. For example, we found
that final inspections and project completion reports in project files lacked documentation or were
incomplete. In addition, guidance since 2007 has required monthly input on CERP projects into the DOD
electronic data management system. Although this requirement would assist in top-level review of
project performance, we found that the requirement to enter CERP project data into the electronic


5 According to GAO’s Standards for Internal Control in the Federal Government, internal controls help ensure that
transactions and other significant events are authorized and executed only by persons acting within the scope of
their authority. Access to resources and records should be limited to authorized individuals and accountability for
their custody and use is assigned and maintained. Both the DOD Financial Management Regulation for CERP and
the CERP Standard Operating Procedures establish a number of procedures to ensure proper controls and
accountability for CERP funds to include the roles and responsibilities of all individuals, risk assessment and
mitigation planning, monitoring procedures, and limited access to vulnerable resources such as cash.


SIGAR Audit-09-5 Commander’s Emergency Response Program                                                      Page 2
system was often not done. In commenting on a draft of this report, USFOR-A stated it is planning to
improve access to project information by requiring project files to be maintained in the electronic
database, including the requirement to scan all hard copy project documents.

In the course of our work, we found that USFOR-A and CJTF-101 CERP managers could not always
determine the status of projects for which funds had been obligated in prior years. Limited
management visibility meant that program officials were unable to produce complete and reliable
results in response to our request for data on the status of all CERP projects. For example, CERP
managers at USFOR-A were unable to identify, during the course of our audit, the number of ongoing
CERP projects funded prior to fiscal year 2009. This limitation occurred, in part, due to a lack of centrally
retained physical project files and incomplete or absent electronic project records. In May 2009, CERP
program officials at USFOR-A told us that corrective actions were needed to permit full management
visibility. As of September 2009, USFOR-A was able to report that approximately 1,500 CERP projects
were either currently active or completed but not closed out.

In particular, we found that requirements for record updates and retention by CERP personnel were not
implemented or fully understood. We reviewed 72 CERP project files funded from fiscal year 2007
through the second quarter of fiscal year 2009, and found that more than half of the files were
incomplete and lacked required information on the status of individual projects. We conducted the
project file review at a task force responsible for administering CERP projects across all five regional
commands in Afghanistan. The file review focused on identifying the presence or absence of nine key
documents required for all CERP project files by CERP Standard Operating Procedures. 6 On average, the
project files were only 54 percent complete. As shown in Figure 1, the results ranged from seven project
files that were less than 25 percent complete to 12 project files that were 76 to 100 percent complete.
One of the reviewed files was for a project worth over $1 million, which contained only 67 percent of
the required documents.

Figure 1: Percent Completeness of Reviewed CERP-A Project Files
                      35
                                                       29
                      30
                                       24
    Number of Files




                      25
                      20
                      15                                             12
                      10    7
                       5
                       0
                           <25%      26-50%         51-75%        76-100%
                                  Percentage of Files Completed

Source: SIGAR analysis.

6
 The nine documents included records of purchase request and commitment, endorsed cost estimate from
government or unit engineer, statement of work, draft contract, legal review, purchase order and invoice voucher,
statement of agent officer’s account or public voucher for purchase, purchase request and commitment clearing
report, and a project closure report.


SIGAR Audit-09-5 Commander’s Emergency Response Program                                                   Page 3
We also found a lack of routine management reviews of the status of CERP projects across fiscal years.
Such gaps in performance monitoring place the CERP program at risk by diminishing visibility over
program results. Visibility over the outcomes and success of CERP projects was particularly limited for
high-level CERP managers for the fiscal year in which projects were approved. In another example, we
found enforcement of internal control processes and procedures for documentation of execution and
closeout of CERP-funded projects were largely left up to the leadership of task forces and provincial
reconstruction teams. Program officials we met with at various levels of the CERP program stated that
standards for internal control documentation processes and procedures were not systematically
enforced by the task force or provincial reconstruction team leadership. The same officials indicated
that there was a lack of continuity and systematic communication on the requirements.

Lack of Experience and Continuity Increases Risk for Large-Scale CERP Projects

While CERP was designed to fund primarily small-scale projects, over time, DOD has increased its use of
large-scale projects of $500,000 or more. Since fiscal year 2005, CERP’s large-scale project obligations
have increased from 39 percent of $130 million in total obligations to 78 percent of $374 million in total
obligations for the first three quarters of fiscal year 2009. While large-scale projects account for a small
proportion (3 percent) of the total number of projects, they consume a majority (67 percent) of CERP
funds. For example, through the third quarter fiscal year 2009, 6 percent of CERP projects were large-
scale projects, constituting $290 million or 78 percent of total obligations. From fiscal years 2005
through the third quarter of fiscal year 2009, $913 million has been obligated for 307 large-scale
projects. Transportation projects account for 198 of these projects, or $766 million in obligations. The
remaining $147 million went towards 109 projects in agriculture, electricity, healthcare, and
telecommunications, among others. See Appendix II for details on obligations of CERP funds by fiscal
year and category.


Table 1: CERP Projects Valued at $500,000 or More, Fiscal Year 2005 Through Third Quarter Fiscal
Year 2009
Fiscal Year                  Projects          Percentage of    Obligations for       Percent of Total
                             $500,000 and      Total Projects   Projects $500,000     Obligated
                             above                              and above
                                                                (in millions)
2005                                    21              0.8%                  $49.9             38.5%
2006                                    28                2.0                135.0                67.2
2007                                    48                2.5                116.3                60.6
2008                                   129                4.1                321.7                69.3
2009 (First 3 Quarters)                 81                6.1                290.3                77.7
2005 – First 3 Quarters of             307              2.9%               $913.2               67.1%
2009
Source: SIGAR analysis of USFOR-A CERP data.

Large-scale projects pose particular risks for CERP, as they may require several years for completion or
consume significant amounts of time and resources by program managers who have been trained to
implement primarily smaller-scale projects. According to CERP managers and PPOs, they are not
sufficiently trained or experienced to oversee or manage large-scale, complex projects. PPOs also told

SIGAR Audit-09-5 Commander’s Emergency Response Program                                                  Page 4
us they have additional responsibilities beyond CERP, further limiting their ability to provide proper
contract oversight for large and complex projects. For projects valued over $500,000, a Warranted
Contracting Officer is also responsible for overseeing the project, in addition to the PPO. In commenting
on a draft of this report, USFOR-A stated that the risk to funds on larger projects is reduced by the
contract oversight provided by a Warranted Contracting Officer.

Continuity of oversight also presents a challenge to CERP, in part, due to the rotation of CERP managers
at task forces and Provincial Reconstruction Teams every nine months. 7 Due to that turnover, large-
scale CERP projects may require the supervision of several different program managers before
completion. For example, CERP program officials indicated that large-scale road projects of $500,000 or
more in the mountainous northeast of Afghanistan typically take years to complete due to weather-
induced limitations on the construction period. In May 2009, GAO reported similar findings, concluding
that program management and oversight of contracts and contractor efforts were hindered by
insufficient and inadequately trained personnel. 8

On September 2, 2009, USFOR-A provided a draft USFOR-A fragmentary order and briefing slides
outlining planned changes to CERP that are intended to increase management oversight of CERP project
execution in Afghanistan. USFOR-A discussed several actions that it plans to take to address
deficiencies, including the addition of project managers for CERP administration, strengthening
electronic record requirements, adding civilian information managers to facilitate electronic record
keeping, limiting the numbers of projects by region, and reducing monetary approval authorities.


CONCLUSIONS

CERP is an important tool for U.S. commanders. Procedures are in place, which if fully implemented
would ensure that CERP funds are used properly and as intended. However, weaknesses in monitoring
and execution of some of these procedures are potentially placing CERP funds at risk. Funds are further
placed at risk by the evolution of the program to include larger, more complex projects that require
sufficient and more highly trained personnel for effective management and oversight. Actions are
needed to ensure proper controls and management of CERP funds. In May 2009, USFOR-A assumed
responsibility for CERP and recently has begun to initiate changes in policy and procedures to address
weaknesses in CERP management. However, these changes have not been fully implemented.




7
 In commenting on a draft of this report, USFOR-A stated that until recently rotations for many taskforces used to
occur every fifteen months.
8
 See GAO-09-615, “Military Operations: Actions Needed to Improve Oversight and Interagency Coordination for
the Commander’s Emergency Response Program in Afghanistan”, May 2009.

SIGAR Audit-09-5 Commander’s Emergency Response Program                                                     Page 5
RECOMMENDATIONS

To improve the management of CERP and ensure sufficient oversight of funds, SIGAR is making several
recommendations to the Commander of USFOR-A. Specifically, we recommend that the Commander of
USFOR-A:

    •   Develop and implement a process to systematically collect and track project information on
        CERP project execution, disbursements, and results over the entire life of the program.

    •   Implement a solution for centralizing CERP records in a complete and up-to-date manner, in
        accordance with regulations and requirements. This solution should consider strengthening
        electronic record keeping and reporting capabilities.

    •   Develop and implement a plan that addresses how to manage the heightened risks associated
        with devoting increasing funds to large-scale projects of $500,000 or higher. The plan should
        take into account the capabilities of the program’s implementing units and processes, given
        their current limitations in such areas as staffing levels, technical expertise, and rotation
        timelines. The plan should, among other things, identify funding and resource requirements
        needed to improve the program’s oversight capabilities for larger and more complex projects.


COMMENTS

USFOR-A provided written comments on a draft of this report, which are included in appendix III. In its
response, USFOR-A concurred with the information presented in the report and indicated actions it is
taking which are generally consistent with our recommendations. However, USFOR-A did not state
whether it did or did not concur with the recommendations.

USFOR-A concurred with the information on the need to develop a process to systematically collect and
track project information and to implement a solution for centralizing CERP records. In its general
comments, USFOR-A described several actions that it plans to take to address deficiencies, including the
addition of project managers for CERP administration, strengthening electronic record requirements,
and adding civilian information managers to facilitate electronic record keeping.

USFOR-A partially concurred with the information on the need to develop a plan for managing the
heightened risk associated with projects of $500,000 or higher. In its general comments on the report,
USFOR-A described several actions it plans to take to address these risks, including limiting the numbers
of ongoing projects by region and reducing monetary approval authorities. USFOR-A did not believe
that projects over $500,000 entailed higher risks. USFOR-A stated that almost all large scale projects are
roads. USFOR-A believes that CERP officials have particular expertise in managing road construction and
that these projects, although expensive, are not complex. We acknowledge that all projects over
$500,000 do not carry the same risk. Our review of project data provided by USFOR-A shows that CERP
projects from fiscal year 2005 through the third quarter of fiscal year 2009 included 109 non-
transportation projects valued over $500,000 (35 percent of total large scale projects). Those projects
included activities in agriculture, electricity, healthcare, and telecommunications. Furthermore,
according to USFOR-A documentation, CERP projects over $1 million are projected to increase by over
35 percent in fiscal year 2010, in part, due to expansion in the south and west of Afghanistan. Thus,


SIGAR Audit-09-5 Commander’s Emergency Response Program                                            Page 6
developing a plan to specifically address management controls of projects over $500,000 remains
important to providing effective program management.

In a written note on the official comments, the Deputy Commanding General of USFOR-A said that he is
disappointed in SIGAR’s report because it did not give USFOR-A credit for the changes that have been
planned. A USFOR-A official stated that our findings should have been provided to USFOR-A prior to the
distribution of our draft report in August 2009. This, in fact, is what SIGAR did. In May, SIGAR briefed
senior USFOR-A officials on the findings of this performance audit. In July, USFOR-A informed SIGAR
that it had initiated actions in response to SIGAR’s work and preliminary findings but provided no details
or documentation. Our report recognizes that USFOR-A has begun to take corrective actions in response
to this audit’s findings and recommendations. In September 2009, in response to a draft of this report,
USFOR-A indicated actions it plans to take to improve its management and oversight of CERP. In this
report, we have incorporated these planned actions, where appropriate. We recognize that USFOR-A is
taking steps to begin to implement our recommendations. However, based on documentation provided
with their comments, these changes are planned and have not yet been fully implemented. Although
these are good first steps to improve accountability, implementation of USFOR-A’s planned
improvements is needed to ensure proper controls and management of CERP funds.




SIGAR Audit-09-5 Commander’s Emergency Response Program                                            Page 7
Appendix I: Scope and Methodology

To identify program requirements and controls, we reviewed CERP guidance issued by the Department
of Defense, U.S. Forces Afghanistan (USFOR-A), and the Combined Joint Task Force-101 (CJTF-101) as
well as program documents, including checklists and guidance prepared by CERP program managers.
We also conducted a non-random sample file review of 72 project files for CERP projects funded in fiscal
years 2008 and 2009. To observe the review and approval process for projects costing over $200,000,
we attended CERP-A board review meetings chaired by USFOR-A. We also reviewed CERP project data
collected in the DOD project tracking system and by USFOR-A. We did not verify USFOR-A obligation
figures against DOD financial records.

We conducted this performance audit from April to July 2009 in Kabul and Bagram Air Field in
Afghanistan. We conducted our work at USFOR-A and its subcommand CJTF-101, as well as Task Force
Phoenix and Task Force Warrior, where we reviewed documents and interviewed officials responsible
for the management, approval, and monitoring of the program. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions. The audit was conducted by the Office of the
Special Inspector General for Afghanistan Reconstruction under the authority of Public Law 110-181,
Section 1229, and the Inspector General Act of 1978, as amended.




SIGAR Audit-09-5 Commander’s Emergency Response Program                                          Page 8
Appendix II: USFOR-A Commander’s Emergency Response Program (CERP) Project Data, 2005-2009

This appendix contains information on CERP projects in Afghanistan. The tables below provide
information on the number of projects and total amounts obligated for each CERP authorized category
since fiscal year 2005. These data are a summary of information USFOR-A collects.


Table 1: Number of FY 2005 Projects and Total Amount Obligated, by CERP Categories
(in millions of U.S. dollars)
  Categories                            Obligated    Percentage     Number of    Percentage
                                                         of total     projects       of total
                                                      obligation                    projects
  Water & Sanitation                          $5.4         4.2%           345        12.6%
  Food Production & Distribution               0.5           0.4           18            0.7
  Agriculture & Irrigation                     3.7           2.8          191            7.0
  Electricity                                  2.4           1.9           93            3.4
  Healthcare                                   6.0           4.7          228            8.3
  Education                                   21.1          16.3          513           18.7
  Telecommunications                           5.5           4.2           67            2.4
  Economic, Financial & Management
  Improvements                                 3.6          2.8            44           1.6
  Transportation                              52.9         40.8           202           7.4
  Rule of Law & Governance                    13.9         10.7           463          16.9
  Civic Cleanup Activities                     0.4          0.3            16           0.6
  Civic Support Vehicles                       8.9          6.9           163           5.9
  Repair of Civic and Cultural Facilities      1.9          1.5           120           4.4
  Battle Damage/Repair                           0            0             0             0
  Condolence Payments                            0            0             0             0
  Hero Payments                                  0            0             0             0
  Former Detainee Payments                       0            0             0             0
  Protective Measures                            0            0             0             0
  Other Urgent Humanitarian or
  Reconstruction Projects                      3.4           2.6          282          10.3
  Temporary Contract Guards for
  Critical Infrastructure                        0             0            0              0
  Totals                                   $129.6                       2,545
 Source: SIGAR analysis of USFOR-A CERP data.

 Note: Totals may not add up due to rounding.




SIGAR Audit-09-5 Commander’s Emergency Response Program                                         Page 9
Table 2: Number of FY 2006 Projects and Total Amount Obligated, by CERP Categories
(in millions of U.S. dollars)
     Categories                             Obligated     Percentage         Number of      Percentage
                                                              of total         projects         of total
                                                           obligation                        number of
                                                                                               projects
  Water & Sanitation                           $4.5              2.2%                 163        11.6%
  Food Production & Distribution                0.4                0.2                 10            0.7
  Agriculture & Irrigation                      6.8                3.4                 98            7.0
  Electricity                                   4.6                2.3                 72            5.1
  Healthcare                                    6.9                3.4                144           10.3
  Education                                    10.9                5.4                202           14.4
  Telecommunications                            5.4                2.7                 52            3.7
  Economic, Financial & Management
  Improvements                                 0.08              0.04                  11           0.8
  Transportation                              145.8              72.6                 191          13.6
  Rule of Law & Governance                      7.2               3.6                  86           6.1
  Civic Cleanup Activities                      0.1               0.1                  12           0.9
  Civic Support Vehicles                        3.1               1.5                  21           1.5
  Repair of Civic and Cultural Facilities       1.2               0.6                  56             4
  Battle Damage/Repair                            0                 0                   0             0
  Condolence Payments                          0.08              0.04                  22           1.6
  Hero Payments                                   0                 0                   0             0
  Former Detainee Payments                        0                 0                   0             0
  Protective Measures                           0.3               0.2                  13           0.9
  Other Urgent Humanitarian or
  Reconstruction Projects                       1.3               0.7                  74           5.3
  Temporary Contract Guards for
  Critical Infrastructure                         0                 0                 0               0
                                     a
  Non categorized obligated funds               2.3               1.1               176            12.5
         b
  Totals                                     $200.9                               1,403
Source: SIGAR analysis of USFOR-A CERP data.
a
    Includes obligated funds not identified under a specific CERP category.
b
    Funding data have been rounded and therefore may not precisely match the total.




SIGAR Audit-09-5 Commander’s Emergency Response Program                                                    Page 10
Table 3: Number of FY 2007 Projects and Total Amount Obligated, by CERP Categories
(in millions of U.S. dollars)
    Categories                             Obligated     Percentage      Total Number       Percentage
                                             Dollars        of Total        of Projects        of Total
                                                          Obligated                         Number of
                                                             Dollars                           Projects
     Water & Sanitation                          $6.2          3.2%                   260        13.7%
     Food Production & Distribution               0.3            0.1                   11           0.6
     Agriculture & Irrigation                     9.5            4.9                  146           7.7
     Electricity                                  7.3            3.8                   96           5.1
     Healthcare                                   8.0            4.2                  201          10.6
     Education                                   25.8           13.4                  265          13.9
     Telecommunications                           0.9            0.5                   23           1.2
     Economic, Financial & Management
     Improvements                                 0.7            0.4                   13          0.7
     Transportation                            107.0            55.8                  211         11.1
     Rule of Law & Governance                    11.0            5.7                  114          6.0
     Civic Cleanup Activities                     0.2            0.1                   11          0.6
     Civic Support Vehicles                       3.7            1.6                    9         0.48
     Repair of Civic and Cultural Facilities      3.8              2                  138          7.3
     Battle Damage/Repair                           0              0                    0            0
     Condolence Payments                          0.1            0.1                   17          0.9
     Hero Payments                                  0              0                    0            0
     Former Detainee Payments                       0              0                    0            0
     Protective Measures                          0.4            0.2                   17          0.9
     Other Urgent Humanitarian or
     Reconstruction Projects                      3.7            1.9                  143          7.6
     Temporary Contract Guards for
     Critical Infrastructure                        0              0                 0               0
                                        a
     Non categorized obligated funds              3.2           0.02               220            11.6
            b
     Totals                                   $191.8                             1,895
    Source: SIGAR analysis of USFOR-A CERP data.

a
    Includes obligated funds not identified under a specific CERP category.
b
    Funding data have been rounded and therefore may not precisely match the total.




SIGAR Audit-09-5 Commander’s Emergency Response Program                                                   Page 11
Table 4: Number of FY 2008 Projects and Total Amount Obligated, by CERP Categories
(in millions of U.S. dollars)
     Categories                                Obligated   Percentage    Total Number     Percentage
                                                 Dollars      of Total      of Projects      of Total
                                                            Obligated                     Number of
                                                               Dollars                       Projects
     Water & Sanitation                           $20.9          4.5%              344         10.9%
     Food Production & Distribution                 0.4            0.1              14            0.5
     Agriculture & Irrigation                      25.1            5.4             191            6.1
     Electricity                                     15            3.2             133            4.2
     Healthcare                                    23.6            5.1             259            8.2
     Education                                     53.8           11.6             441           14.0
     Telecommunications                             1.9            0.4              52            1.7
     Economic, Financial & Management
     Improvements                                   4.5             1               18           0.6
     Transportation                               270.5          58.3              269           8.6
     Rule of Law & Governance                      13.3           2.9              103           3.3
     Civic Cleanup Activities                       0.1          0.02                6           0.2
     Civic Support Vehicles                         0.7           0.2               14           0.5
     Repair of Civic and Cultural Facilities       10.6           2.3              183           5.8
     Battle Damage/Repair                           0.7           0.2               26           0.8
     Condolence Payments                            0.3           0.1               49           1.7
     Hero Payments                                    0             0                0             0
     Former Detainee Payments                         0             0                1          0.03
     Protective Measures                            2.9           0.6               48           1.5
     Other Urgent Humanitarian or
     Reconstruction Projects                         3.0          0.6              133           4.2
     Temporary Contract Guards for
     Critical Infrastructure                          0             0                0             0
                                        a
     Non categorized obligated funds
                                                 16.8             3.6              860          27.4
           b
     Totals                                   $464.3                             3,144
    Source: SIGAR analysis of USFOR-A CERP data.

 a
 Includes obligated funds not identified under a specific CERP category.
b
 Funding data have been rounded and therefore may not precisely match the total.




SIGAR Audit-09-5 Commander’s Emergency Response Program                                                 Page 12
Table 5: Number of FY 2009 Projects and Total Amount Obligated, by CERP Categories
(in millions of U.S. dollars)
     Categories                             Obligated     Percentage      Total Number      Percentage
                                              Dollars        of Total        of Projects       of Total
                                                           Obligated                        Number of
                                                              Dollars                          Projects
     Water & Sanitation                         $12.4           3.3%                  179        13.7%
     Food Production & Distribution                0.6            0.2                  12           0.9
     Agriculture & Irrigation                     19.3            5.2                 144          10.8
     Electricity                                   2.4            0.6                  38           2.8
     Healthcare                                    6.8            1.8                 137          10.3
     Education                                    23.4            6.3                 166          12.4
     Telecommunications                            0.7            0.2                   6           0.5
     Economic, Financial & Management
     Improvements                                  1.0            0.3                  11          0.8
     Transportation                             269.1              72                 178         13.3
     Rule of Law & Governance                      7.8            2.1                  37          2.8
     Civic Cleanup Activities                      0.3            0.1                   9          0.7
     Civic Support Vehicles                        0.6            0.2                   4          0.3
     Repair of Civic and Cultural Facilities       5.2            1.4                  88          6.6
     Battle Damage/Repair                          0.8            0.2                  70          5.2
     Condolence Payments                           0.3            0.1                  40          3.0
     Hero Payments                                 0.1           0.03                   5          0.4
     Former Detainee Payments                        0              0                   0            0
     Protective Measures                           5.0            1.3                  40          3.0
     Other Urgent Humanitarian or
     Reconstruction Projects                      17.7            4.7                 172         12.9
     Temporary Contract Guards for
     Critical Infrastructure                       0.2             0.1                1            0.1
            b
     Totals                                    $373.7                             1,337
     Source: SIGAR analysis of USFOR-A CERP data.

a
    Funding data have been rounded and therefore may not precisely match the total.




SIGAR Audit-09-5 Commander’s Emergency Response Program                                                   Page 13
Table 6: Number Projects and Total Amount Obligated for Fiscal Year 2005 through Third Quarter
2009, by CERP Categories
(in millions of U.S. dollars)
    Categories                             Obligated     Percentage      Total Number       Percentage
                                             Dollars        of Total        of Projects        of Total
                                                          Obligated                         Number of
                                                             Dollars                           Projects
    Water & Sanitation                         $49.4           3.6%               1291           12.3%
    Food Production & Distribution                2.3            0.2                65              0.6
    Agriculture & Irrigation                     64.4            4.7               770              7.3
    Electricity                                  31.7            2.3               432              4.1
    Healthcare                                   51.4            3.8               969              9.2
    Education                                  134.9             9.9              1587             15.1
    Telecommunications                           14.4            1.1               200              1.9
    Economic, Financial & Management
    Improvements                                 10.0            0.7                97             0.9
    Transportation                             845.3            62.1              1051            10.0
    Rule of Law & Governance                     53.0            3.9               803             7.6
    Civic Cleanup Activities                      1.2            0.1                54             0.5
    Civic Support Vehicles                       17.1            1.3               211             2.0
    Repair of Civic and Cultural Facilities      22.7            1.7               585             5.7
    Battle Damage/Repair                          1.5            0.1                96             0.9
    Condolence Payments                           0.8            0.1               128             1.2
    Hero Payments                                 0.1           0.01                 5             0.1
    Former Detainee Payments                        0              0                 1            0.01
    Protective Measures                           8.6            0.6               118             1.1
    Other Urgent Humanitarian or
    Reconstruction Projects                      29.1            2.1                  804          7.6
    Temporary Contract Guards for
    Critical Infrastructure                       0.2           0.01                    1         0.01
    Non categorized obligated &
                      a
    disbursed funds                              22.3            1.6              1256            11.9
           b
    Totals                                       $1.4                           10,524
    Source: SIGAR analysis of USFOR-A CERP data.

a
    Includes obligated funds not identified under a specific CERP category.
b
    Funding data have been rounded and therefore may not precisely match the total.




SIGAR Audit-09-5 Commander’s Emergency Response Program                                                   Page 14
Appendix III: Comments from U.S. Forces Afghanistan




SIGAR Audit-09-5 Commander’s Emergency Response Program   Page 15
SIGAR Audit-09-5 Commander’s Emergency Response Program   Page 16
SIGAR Audit-09-5 Commander’s Emergency Response Program   Page 17
(This report was conducted under the audit project code SIGAR-005A).




SIGAR Audit-09-5 Commander’s Emergency Response Program                Page 18
_________________________________________________________________________________
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction is to enhance oversight of programs for the
                              reconstruction of Afghanistan by conducting independent and
                              objective audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to:

                                  •   improve effectiveness of the overall reconstruction strategy
                                      and its component programs;
                                  •   improve management and accountability over funds
                                      administered by U.S. and Afghan agencies and their
                                      contractors;
                                  •   improve contracting and contract management processes;
                                  •   prevent fraud, waste, and abuse; and
                                  •   advance U.S. interests in reconstructing Afghanistan.


Obtaining Copies of SIGAR         To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies           SIGAR’s Web site (www.sigar.mil). SIGAR posts all released
                                  reports, testimonies, and correspondence on its Web site.


To Report Fraud, Waste, and       To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan              allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs           reprisal contact SIGAR’s hotline:

                                      •   Web: www.sigar.mil/fraud
                                      •   Email: hotline@sigar.mil
                                      •   Phone Afghanistan: +93 (0) 700-10-7300
                                      •   Phone DSN Afghanistan 318-237-2575
                                      •   Phone International: +1-866-329-8893
                                      •   Phone DSN International: 312-664-0378
                                      •   U.S. fax: +1-703-604-0983



Public Affairs                    Public Affairs Officer
                                     • Phone: 703-602-8742
                                     • Email: PublicAffairs@sigar.mil
                                     • Mail: SIGAR Public Affairs
                                         400 Army Navy Drive
                                         Arlington, VA 22202
